App. 1
APPENDIX A
Affirmed and Opinion filed October 23, 2018.
[SEAL]
In the
Fourteenth Court of Appeals
-----------------------------------------------------------------------

NO. 14-17-00660-CR
-----------------------------------------------------------------------

DIEGO BALDEMAR ISLAS, Appellant
V.
THE STATE OF TEXAS, Appellee
========================================================
On Appeal from the 339th District Court
Harris County, Texas
Trial Court Cause No. 1413044
========================================================
OPINION
Appellant Diego Baldemar Islas was indicted on a
felony charge of intoxication manslaughter. See Tex.
Penal Code Ann. § 49.08 (West 2018). Appellant
pleaded guilty after the trial court denied his motion
to suppress evidence of intoxication obtained from a
blood draw. The trial court sentenced appellant to ten
years’ confinement in the Institutional Division of the
Texas Department of Criminal Justice. In a single issue, Appellant challenges the trial court’s denial of his

App. 2
motion to suppress evidence obtained from the blood
draw. We overrule appellant’s issue and affirm.
I.

BACKGROUND

At approximately 1:00 a.m. on New Year’s Day
2014, appellant was driving when he ran a red light
and hit another vehicle. The collision killed a passenger in the other vehicle. Appellant was taken to the
hospital.
At the hospital, appellant’s blood was taken three
times. At 2:40 a.m., hospital personnel drew a sample
of appellant’s blood for medical purposes. After appellant refused to voluntarily provide a blood sample for
police, Officer Perales of the Houston Police Department’s DWI Task Force instructed hospital personnel
to draw appellant’s blood without a search warrant;
this sample was taken at 2:59 a.m. Perales subsequently sought a search warrant authorizing a blood
draw from appellant. Perales supported his warrant
request to the Harris County magistrate with an affidavit.
The affidavit, sworn to by Perales, stated and supported Perales’s belief that appellant had been unlawfully operating a motor vehicle in a public place while
intoxicated. According to the affidavit, Officer Bymaster was dispatched to the scene of the collision and
spoke to a witness. The witness stated she had
observed appellant’s vehicle run the red light and
“T-bone” another vehicle. A person had been ejected
from the other vehicle and the witness unsuccessfully

App. 3
attempted C.P.R. on that person. Bymaster came into
contact with appellant and observed he had “a distinct
odor of alchol [sic] emitting from his person and
breath.” Bymaster then requested a drug recognition
unit respond to the incident. Perales responded and
met Bystander and appellant at the hospital. At the
hospital, Perales observed that appellant “had a distinct odor of alcohol emitting from his breath, slurred
speech, and cyclic mood swings.” “Defendant admitted
to drinking one eight ounce drink that contained Jack
Daniels alcohol and Coke at 12:20 a.m.” The affidavit
further explained that Perales administered the horizontal gaze nystagmus test, and appellant showed six
clues of intoxication. Based on the totality of the circumstances, including appellant’s actions and performance prior to the testing, Perales formed the opinion
that appellant was intoxicated by alcohol and had lost
the normal use of his mental and physical faculties.
The affidavit concluded with a request for the issuance
of a warrant to take a sample of appellant’s blood.
At 4:07 a.m., the magistrate determined probable
cause existed and issued the search warrant based on
the facts contained in the affidavit. At 5:24 a.m., appellant’s blood was drawn pursuant to the warrant.1
Toxicology results for the blood sample taken pursuant to the warrant indicated that appellant had a
blood alcohol concentration of 0.075. Retrograde
1

There is no evidence in the record that the State obtained
toxicology results on the blood samples drawn before the warrant
was executed.

App. 4
extrapolation from this result indicated that appellant’s blood alcohol concentration at the time of the collision was between 0.08 and 0.14.
Appellant was indicted on a felony charge of intoxication manslaughter.
Before the trial court, appellant moved to suppress
the evidence obtained from all three blood draws. The
trial court ultimately granted appellant’s motion with
respect to the first two blood draws but not the third.
In support of its ruling, the trial court made the following relevant conclusions of law:
The fact that a warrantless blood draw had already been obtained was not a material fact
that needed to be included in the affidavit for
the second legal blood draw.
If the fact that a warrantless blood draw had
already been performed had been included in
the affidavit for the second legal blood draw it
would have had no legal bearing on the Magistrate’s decision as to whether to issue the
warrant in this case.
Appellant waived a jury trial and pleaded guilty to
intoxication manslaughter without an agreed recommendation as to punishment. After a punishment
hearing before the trial court, the trial court found that
appellant used or exhibited a deadly weapon during
the commission of the offense. The trial court sentenced appellant to ten years of confinement in the Institutional Division of the Texas Department of
Criminal Justice. Having retained his right to appeal,

App. 5
Islas now appeals the trial court’s denial of his motion
to suppress evidence obtained in the third blood draw.
II.

ANALYSIS

A. Standard of review
When reviewing a trial court’s ruling on a motion
to suppress, we generally apply a bifurcated standard
of review, giving almost total deference to the trial
court’s determinations of fact and reviewing de novo
the trial court’s application of the law. State v. McLain,
337 S.W.3d 268, 271 (Tex. Crim. App. 2011). However,
where the motion to suppress is based upon a magistrate’s decision to issue a warrant, there are no credibility determinations to which we must defer because
the trial court is constrained to the four corners of the
affidavit. Id.
When we review the magistrate’s decision to issue
a warrant, we apply a highly deferential standard because of the constitutional preference for searches to
be conducted pursuant to a warrant as opposed to a
warrantless search. Id.; see Illinois v. Gates, 462 U.S.
213, 236 (1983). “As long as the magistrate had a substantial basis for concluding that probable cause existed, we will uphold that magistrate’s probable cause
determination.” McLain, 337 S.W.3d at 271; see State v.
Dugas, 296 S.W.3d 112, 115 (Tex. App.—Houston [14th
Dist.] 2009, pet. ref ’d) (explaining that review of magistrate’s issuance of search warrant is “not de novo”
and that “great deference is given to the magistrate’s
determination of probable cause”). Under this highly

App. 6
deferential review—which the Texas Court of Criminal
Appeals calls the “substantial basis” standard—the reviewing court’s duty is simply to ensure the magistrate
had a substantial basis for concluding that probable
cause existed. Flores v. State, 319 S.W.3d 697, 702 (Tex.
Crim. App. 2010) (citing W. LaFave, Search and Seizure: A Treatise on the Fourth Amendment § 11.7(c) at
452 (4th ed. 2004 & Supp. 2009–2010)).
B. Probable cause required for blood samples
The United States and Texas Constitutions provide that no search warrant shall issue except upon
probable cause as supported by an oath or affirmation.
See U.S. Const. amend. IV; Tex. Const. art. I, § 9. Similarly, the Texas Code of Criminal Procedure provides
that no search warrant shall issue except upon an affidavit establishing probable cause. See Tex. Code Crim.
Proc. art. 18.01(b) (West 2018). A search warrant may
be obtained from a magistrate only after submission of
an affidavit setting forth facts establishing probable
cause. State v. Jordan, 342 S.W.3d 565, 568 (Tex. Crim.
App. 2011); see Tex. Code Crim. Proc. art. 18.01(b).
Probable cause exists if, under the totality of the
circumstances in the affidavit, there is a “fair probability” that contraband or evidence of a crime will be
found in a particular place at the time the warrant is
issued. Jordan, 342 S.W.3d at 568–69; Flores, 319
S.W.3d at 702; see Gates, 462 U.S. at 238. In other
words, probable cause exists when a magistrate has “a
substantial basis for concluding that a search would

App. 7
uncover evidence of wrongdoing.” Dugas, 296 S.W.3d at
116.
Where the search warrant sought is for blood evidence to prove intoxication, the magistrate typically
must determine probable cause exists that a blood test
would provide evidence showing appellant was intoxicated. See Thom v. State, 437 S.W.3d 556, 561 (Tex.
App.—Houston [14th Dist.] 2014, no pet.). Whether the
facts stated in the affidavit establish probable cause
depends on the totality of the circumstances. Dugas,
296 S.W.3d at 116. Evidence of intoxication may include, for example, slurred speech, bloodshot eyes, or
the odor of alcohol on the breath. Harris v. State, 204
S.W.3d 19, 25 (Tex. App.—Houston [14th Dist.] 2006,
pet. ref ’ d) (citing Cotton v. State, 686 S.W.2d 140, 142
n.3 (Tex. Crim. App. 1985)).
In this case, the magistrate’s role was to determine whether there was a substantial basis to believe
that evidence of driving while intoxicated, i.e., an illegal concentration of blood alcohol, would be found in
appellant’s blood. The observations described in Perales’s affidavit—appellant’s running a red light, hitting another vehicle, the odor of alcohol emitting from
appellant’s breath, his slurred speech and cyclic mood
swings, as well as the clues obtained from the horizontal gaze nystagmus test—provided a substantial basis
to support the magistrate’s determination of probable
cause that appellant had been driving while intoxicated. Defendant’s admission that he had one alcoholic
drink prior to the collision also supported this determination. Considering the totality of the circumstances

App. 8
recounted within the four corners of the affidavit in
this case, the magistrate had a substantial basis for
concluding probable cause existed.
C. Franks v. Delaware
Appellant argues that the affidavit failed to state
probable cause because the affiant omitted any reference to the prior warrantless blood draws. Appellant
asserts that the affidavit used to obtain the search warrant was therefore misleading, and the evidence obtained in the third blood draw should have been
suppressed under Franks v. Delaware, 438 U.S. 154
(1978). Appellant contends that once an adequate sample of blood had been obtained, the State could not seek
a warrant to obtain more blood without informing the
magistrate that the blood had already been obtained
and providing some reason that an additional blood
sample would provide additional material evidence.
Appellant asserts that allowing a warrant for the State
to take another blood draw where no facts showed the
previous blood draw was inadequate or ineffective is
unreasonable per se under the Texas Code of Criminal
Procedure.
In Franks v. Delaware, the Supreme Court of
the United States held that if there is an affirmative
misrepresentation in the warrant affidavit and the
misrepresentation is material and necessary to establishing probable cause, then the warrant is invalid under the Fourth Amendment. 438 U.S. at 155–56;
Aguirre v. State, 490 S.W.3d 102, 109 (Tex. App.—

App. 9
Houston [14th Dist.] 2016, no pet.). This court has extended this ruling to material omissions. Melton v.
State, 750 S.W.2d 281, 284 (Tex. App.—Houston [14th
Dist.] 1988, no pet.) (“Such omissions are treated essentially the same as claims of material misstatements.”).
Under Franks, if the defendant makes a substantial preliminary showing that a warrant affidavit contains a false statement or omission made knowingly,
intentionally, or with reckless disregard for the truth
and that statement is necessary to the finding of probable cause, a hearing should be held at the defendant’s
request. 438 U.S. at 155–56; Harris v. State, 227 S.W.3d
83, 85 (Tex. Crim. App. 2007). At the hearing, the defendant bears the burden by a preponderance of the
evidence to establish that a false statement was
made—or a true statement was omitted—intentionally, knowingly, or with reckless disregard for the
truth. See Franks, 438 U.S. at 155–56; Melton, 750
S.W.2d at 284. If the defendant carries that burden,
then the false statement is removed from the affidavit,
or the true statement is added, and the reviewing court
must determine whether probable cause for the warrant still exists. Melton, 750 S.W.2d at 284. If it does
not, then the warrant must be voided and the evidence
seized pursuant to the search must be suppressed. Id.
(citing United States v. Martin, 615 F.2d 318, 328 (5th
Cir. 1980)).
Because we conclude the fact omitted was immaterial to the magistrate’s probable-cause determination, we need not determine whether Perales’s

App. 10
omission was made intentionally, knowingly, or with
reckless disregard for the truth. See Tex. R. App. P.
47.1.2 Appellant has not cited, nor have we found, any
case or statute requiring that an affidavit in support of
a warrant for a subsequent blood sample must inform
the magistrate of the prior blood draw and provide reasons why an additional blood sample would provide additional material evidence. Further, appellant cites no
case or statute, nor have we found any, requiring that
an affidavit in support of a warrant for a subsequent
blood sample must allege facts showing the previous
blood draw was inadequate or ineffective. We know of
no authority instructing that the failure to include this
information in an affidavit should invalidate a magistrate’s determination of probable cause. The magistrate needed simply to determine whether there was a
“fair probability” that evidence of an offense, i.e., driving while intoxicated, would be found in appellant’s
blood when the warrant issued.
The totality of the circumstances in the four corners of this affidavit shows that there was, at the very
least, a “fair probability” that evidence of intoxication
would be found in appellant’s blood when the warrant
issued. See Jordan, 342 S.W.3d at 568–69; Flores, 319
S.W.3d at 702; see also Gates, 462 U.S. at 238. Even assuming Perales excluded appellant’s prior blood draw
from his probable-cause affidavit intentionally, knowingly, or with reckless disregard for the truth, we
2

For the same reason, we need not address appellant’s argument that the State violated the separation of powers between the
executive and judicial branches of government.

App. 11
cannot conclude that inclusion of appellant’s prior
blood draws in the affidavit would have defeated a determination of probable cause for the warrant. Cf.
Renteria v. State, 206 S.W.3d 689, 703–04 (Tex. Crim.
App. 2006) (“assuming that Franks applies to omissions, the magistrate would have had probable cause
to issue the warrant even with the inclusion of information” that prior search of van did not yield any evidence).
Probable cause to support a warrant is reviewed
under a totality-of-the-circumstances analysis. State v.
Duarte, 389 S.W.3d 349, 354 (Tex. Crim. App. 2012).
“Probable cause exists when, under the totality of the
circumstances, there is a ‘fair probability’ that contraband or evidence of a crime will be found at the specified location.” Id. Here, the affidavit established that
appellant had been drinking prior to the collision, hit
another vehicle, smelled of alcohol, had slurred speech,
and failed the horizontal gaze nystagmus test conducted on him shortly after the collision. The fact that
appellant had previously had his blood drawn does not
disprove probable cause. As such, the fact that appellant’s blood already had been drawn was not material
to the magistrate’s determination of probable cause.
D. Schmerber v. California
Appellant argues in his brief that the magistrate
also should have considered “whether there [was]
probable cause that the search to be performed would

App. 12
be reasonable under the totality of the circumstances—what Schmerber [v. California] referred to as
whether the intrusion was justified in the circumstances.” Appellant asserts, “This must necessarily include the circumstance that the relevant blood sample
already in possession of the police was all the evidence
useful for their purposes.” At oral argument, appellant
argued that whether a search is reasonable and justified under the circumstances is an element of probable
cause under Schmerber. We disagree.
Schmerber v. California is distinguishable from
appellant’s case. Schmerber did not involve review of a
magistrate’s probable-cause determination. See generally 384 U.S. 757 (1966). In Schmerber, the Supreme
Court of the United States addressed the constitutionality of warrantless blood draws conducted for lawenforcement purposes under the Fourth Amendment.
See id. at 759, 766–72. This case does not involve the
constitutionality of a warrantless blood draw.
Even if Schmerber applied to the circumstances of
this case (it does not), Schmerber does not support appellant’s argument. Nothing in Schmerber suggests
that a probable-cause determination includes a reasonableness determination. See generally id. The
Court’s analysis of probable cause in Schmerber was
separate and distinct from its analysis of reasonableness. See id. at 768–72.
The Schmerber Court identified a two-part analysis for determining the legality of a warrantless blood
draw: “(1) ‘whether the police were justified in

App. 13
requiring [the defendant] to submit to a blood test;’
and, (2) ‘whether the means and procedures employed
in taking [the defendant’s] blood respected relevant
Fourth Amendment standards of reasonableness.’ ”
State v. Johnston, 336 S.W.3d 649, 658 (Tex. Crim. App.
2011) (quoting Schmerber, 384 U.S. at 768). The Court
then evaluated whether the test was “justified” and
whether it was “reasonable” as independent components of the test. See Schmerber, 384 U.S. at 768–72.
In determining whether the search was “justified,”
the Court considered two separate inquiries: the existence of probable cause and the existence of exigent circumstances. Id. at 768–71. First, the Court determined
probable cause existed based on the Officer’s observation of signs of intoxication:
Here, there was plainly probable cause for the
officer to arrest petitioner and charge him
with driving an automobile while under the
influence of intoxicating liquor. The police officer who arrived at the scene shortly after the
accident smelled liquor on petitioner’s breath,
and testified that petitioner’s eyes were ‘bloodshot, watery, sort of a glassy appearance.’ The
officer saw petitioner again at the hospital,
within two hours of the accident. There he noticed similar symptoms of drunkenness. He
thereupon informed petitioner ‘that he was
under arrest and that he was entitled to the
services of an attorney, and that he could remain silent, and that anything that he told me
would be used against him in evidence.’

App. 14
Id. at 768–69. The Court acknowledged, however, that
probable cause alone would not satisfy the “justified”
prong of the test:
Although the facts which established probable cause to arrest in this case also suggested
the required relevance and likely success of a
test of petitioner’s blood for alcohol, the question remains whether the arresting officer
was permitted to draw these inferences himself, or was required instead to procure a warrant before proceeding with the test.
Id. at 770. The Court determined that the warrantless
search of the defendant’s blood was “justified” because
in addition probable cause, exigent circumstances existed which permitted an exception to the warrant requirement. Id. at 770–71. But see Missouri v. McNeely,
569 U.S. 141, 165 (2013) (holding natural dissipation of
alcohol in bloodstream did not create per se exigency
justifying warrantless blood draw). The Court then
separately addressed the second prong of the test—
reasonableness. Schmerber, 384 U.S. at 771–72. At no
point in the opinion did the Court address reasonableness as a component of, or in relation to, probable
cause. We reject appellant’s argument that a reasonableness analysis should have been played a part in the
magistrate’s probable-cause determination or that it
should play a part in our Franks analysis.
E. Reasonableness
Even if reasonableness of a search were relevant to probable cause or a Franks analysis, we are not

App. 15
persuaded by appellant’s arguments that the subsequent blood draw was per se unreasonable. Appellant
argues that under Schmerber, a reasonableness determination should have included “the circumstance that
the relevant blood sample already in possession of the
police was all the evidence useful for their purposes.”
Schmerber does not support this contention. The reasonableness prong of the Schmerber test contains two
separate inquiries: (1) whether the test chosen (the
means) was reasonable and (2) whether the test was
performed in a reasonable manner (the procedures).
Johnston, 336 S.W.3d at 658 (citing Schmerber, 384
U.S. at 771).3 Appellant does not argue that the test
chosen in his case was unreasonable or that the test
was performed in an unreasonable manner.4 Rather,
appellant argues that in every case, a subsequent
search would be “per se unreasonable” where no facts
show that “the first blood draw was inadequate or
3

In Winston v. Lee, 470 U.S. 753 (1985), the Supreme Court
of the United States further explicated Schmerber’s reasonableness prong. The Winston Court pointed out that in Schmerber,
the Court considered “the extent to which the procedure may
threaten the safety or health of the individual” and “the extent of
intrusion upon the individual’s dignitary interests in personal
privacy and bodily integrity.” Id. at 761–62. The Court also noted
that these interests must be weighed against “the community’s
interest in fairly and accurately determining guilt or innocence.”
Id. at 762.
4
We do not hold that repeated blood tests could never be unreasonable. In certain circumstances, the extent of the intrusion
upon the individual’s dignitary interests in personal privacy and
bodily integrity may outweigh the community’s interest in fairly
and accurately determining guilt or innocence. See Winston, 470
U.S. at 762.

App. 16
ineffective.” In support of his argument, appellant relies on the Texas Code of Criminal Procedure.
Appellant first cites Texas Code of Criminal Procedure article 18.01(d) to support the proposition that
subsequent search warrants require special scrutiny;
however, as appellant acknowledges, this case does not
involve a subsequent warrant.
Appellant next references Texas Code of Criminal
Procedure article 18.01(j) as providing that magistrates may issue a search warrant to collect a blood
specimen from a person who refuses to submit to a
breath or blood alcohol test. Appellant then argues
that a person who voluntarily provided a blood or
breath specimen “cannot have a warrant issued ‘for another bite at the apple,’ without some reason to believe
the original blood draw was in some way defective[,]”
and “the fact that the first seizure was not consensual
should not by itself affect whether a warrant may issue for a second seizure.” Essentially, appellant argues that under Texas Code of Criminal Procedure
article 18.01(j), magistrates may issue search warrants to collect a blood specimen from a person who refuses to submit to a breath or blood alcohol test unless
the person’s blood has already been taken without a
warrant. We reject appellant’s attempt to inject this
additional language, which does not appear in article
18.01(j).
We hold that omitting mention of the prior blood
draws in the probable-cause affidavit supporting the

App. 17
search warrant for appellant’s blood did not invalidate
the warrant.
We overrule appellant’s issue.
III.

CONCLUSION

We affirm the judgment of the trial court.
/s/ Marc W. Brown
Justice
Panel consists of Justices Busby, Brown, and Jewell.
Publish—TEX. R. APP. P. 47.2(b).

App. 18
APPENDIX B
OFFICIAL NOTICE FROM COURT OF CRIMINAL
APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
2/27/2019

COA No. 14-17-00660-CR

ISLAS, DIEGO BALDEMAR
Tr. Ct. No. 1413044

PD-1300-18

On this day, the Appellant’s petition for discretionary
review has been refused.
Deana Williamson, Clerk

App. 19
APPENDIX C
OFFICIAL NOTICE FROM COURT OF CRIMINAL
APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
5/8/2019
ISLAS, DIEGO BALDEMAR
Tr. Ct. No. 1413044

PD-1300-18

On this day, the Appellant’s motion for rehearing has
been denied.
Deana Williamson, Clerk

